No. 19-635
IN THE SUPREME COURT OF THE UNITED STATES
_________________
DONALD J. TRUMP, PETITIONER
v.
CYRUS R. VANCE, JR., IN HIS OFFICIAL CAPACITY
AS DISTRICT ATTORNEY OF THE COUNTY OF NEW YORK, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES AS AMICUS CURIAE SUPPORTING
PETITIONER, via email and first-class mail, postage prepaid, this 3rd day of February, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 8800 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on February 3, 2020

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
February 3, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0635
TRUMP, DONALD J.
CYRUS R. VANCE, JR., ET AL.

JERRY D. BERNSTEIN
BLANK ROME LLP
1271 AVENUE OF THE AMERICAS
NEW YORK, NY 10020
212-885-551
JBERNSTEIN@BLANKROME.COM
WILLIAM S. CONSOVOY
CONSOVY MCCARTHY PLLC
1600 WILSON BLVD.
SUITE 700
ARLINGTON, VA 22209
703-243-9423
WILL@CONSOVOYMCCARTHY.COM
CAREY R. DUNNE
GENERAL COUNSEL NEW YORK COUNTY
DISTRICT ATTORNEY'S OFFICE
ONE HOGAN PLACE
NEW YORK , NY 10013
212-335-9000
DUNNEE@DANY.NYC.GOV
DENNIS GROSSMAN
6701 SUNSET DRIVE
SUITE 104
MIAMI, FL 33143
516-466-6690
DAGROSSMANLAW@AOL.COM

JAY ALAN SEKULOW
CONSTITUTIONAL LITIGATION &
ADVOCACY GROUP, P.C.
1701 PENNSYLVANIA AVE., NW
SUITE 200
WASHINGTON, DC 20006
202-546-8890
JSEKULOW@CLAGLAW.COM
PATRICK STRAWBRIDGE
CONSOVOY MCCARTHY PLLC
TEN POST OFFICE SQUARE
8TH FLOOR SOUTH
PMB #706
BOSTON, MA 02109
617-227-0548
PATRICK@CONSOVOYMCCARTHY.COM

